                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
               Reporting Entity: Department of Transportation - OIG
             Month Ending Date: 03/31/2010

                                                          Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau         Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays     Direct or     Ordering TAFS
                                                                                                                                         Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)                         Y - US            $2,561,649            $2,449,467           Direct           N/A
      Transportation - OIG       Transportation - OIG -
 1                               Recovery Act
 2
 3
 4
 5
 6
 7
 8
 9
10

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau       FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010       Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations        Gross Outlays
No.
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                     $720,658         $574,322
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                          DOT OIG Monthly Report Num 13 03-31-10
                                                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 03/31/2010

                         FTE Working on Recovery
                                                                                                                                 Testimonies:
     Fiscal Year           2009                2010                 Cumulative
      Newly Hired FTE
                           0.77                 5.80                   6.57                                                    Provided (monthly):     1
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 19.68                 21.22                                                 Provided (cumulative):     4
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 4.31                  19.51
         (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                   Investigations                                                            Training / Outreach
                                                                                                                                   Reviews
          Monthly Data                         Monthly Data                               Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                      Training Sessions
            Received:     10                            Received:      0              Opened (this month):      0            Initiated (this month):   1                                   12
                                                                                                                                                                             Provided:
                                                                                 Active (as of the end of the           In Process (as of the end of
                                                        Accepted:      0                                        24                                   12            Individuals Trained:   1040
                                                                                                     month):                            the month):

                                                                                                                        Completed Final Published                    Hours of Training
                                                                                          Pending Decision:     8                                      0                                  1170
                                                                                                                                 Work Products:                             Provided:

                                                                                                                         Priority Interim Published                 Outreach Sessions
                                                                                     Closed without Action:     1                                      0                                    4
                                                                                                                                    Work Products:                        Conducted:

                                                                                                                                Unpublished Work
                                                                                  Accepted for Prosecution:     4                                      0
                                                                                                                                       Products*:
                                                                                       Prosecution Denied:    1
                                                                                    Referred for Alternative
                                                                                                              0
                                                                                                 Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions
            Received:     220                           Received:      2             Closed without Action:     4                                      8                                   192
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published
                                                        Accepted:      2          Accepted for Prosecution:     23                                     0           Individuals Trained:   13,818
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                     Hours of Training
                                                                                        Prosecution Denied:     2                                      0                                  13,848
                                                                                                                                        Products:                           Provided:
                                                                                    Referred for Alternative                                                        Outreach Sessions
                                                                                                                1               Cumulative Total:      8                                   145
                                                                                                 Resolution:                                                              Conducted:
                                                                                         Cumulative Total:      30


                                                                                                                                                       DOT OIG Monthly Report Num 13 03-31-10
                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 03/31/2010

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     On March 18, the Inspector General testified before the House Committee on Oversight and Government Reform on
        1            "Weaknesses in DOT's Suspension and Debarment Program Limits its Protection of Government Funds."
       No.                                OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)



        1
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability to
                     provide effective oversight to ARRA-funded projects and meet new requirements

        2
                     Continue to monitor for fraudulent schemes in the contracting process.




                                                                                                                   DOT OIG Monthly Report Num 13 03-31-10
                                                                                    OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 03/31/2010
           Date:


                                                                                             TRAINING ACTIVITIES
                                                                                                                                                          Hours of
                                                                                                Training                      Length of                   Training                  Presentation     Average
                                                                                                                 Date of                    Number of                   Cost of
     No.               Type of Training       Target Audience            Title of Training    Location (City,                  Training                  Provided                    with Other     Evaluation
                                                                                                                 Training                  Participants                 Training
                                                                                                  State)                       (hours)                    (length x                     OIGs          Rating
                                                                                                                                                        participants)
                                                                    Fraud Prevention/
       1         Fraud Prevention/Awareness   Federal                                        Los Angeles, CA                           1            40             40 N/A                          N/A
                                                                    Awareness Briefing                             3/3/2010
                                                                    Fraud Prevention/
       2         Fraud Prevention/Awareness   Federal                                        Webinar                                   1           150            150 N/A                          N/A
                                                                    Awareness Briefing                             3/9/2010
                                                                    Fraud Prevention/
       3         Fraud Prevention/Awareness   Mixed                                          Juneau, AK                                1            60             60 N/A                          N/A
                                                                    Awareness Briefing                             3/9/2010
                                                                    Fraud Prevention/
       4         Fraud Prevention/Awareness   Private Sector                                 Annapolis, MD                             1            55             55 N/A                          N/A
                                                                    Awareness Briefing                            3/12/2010
                                                                    Fraud Prevention/        Fairview Heights,
       5         Fraud Prevention/Awareness   Mixed                                                                                    1           100            100 N/A                          N/A
                                                                    Awareness Briefing       IL                   3/16/2010
                                                                    Fraud Prevention/
       6         Fraud Prevention/Awareness   State                                          Greenbelt, MD                             1            35             35 N/A                          N/A
                                                                    Awareness Briefing                            3/17/2010
                                                                    Fraud Prevention/
       7         Fraud Prevention/Awareness   State                                          Newington, CT                           1.5           125          187.5 N/A                          N/A
                                                                    Awareness Briefing                            3/19/2010
                                                                    Fraud Prevention/
       8         Fraud Prevention/Awareness   State                                          Newington, CT                           1.5           135          202.5 N/A                          N/A
                                                                    Awareness Briefing                            3/19/2010
                                                                    Fraud Prevention/
       9         Fraud Prevention/Awareness   State                                          Lenox, MA                                 1            45             45 N/A                          N/A
                                                                    Awareness Briefing                            3/23/2010
                                                                    Fraud Prevention/
      10         Fraud Prevention/Awareness   Mixed                                          Kansas City, MO                           1           200            200 N/A                          N/A
                                                                    Awareness Briefing                            3/24/2010
                                                                    Fraud Prevention/
      11         Fraud Prevention/Awareness   State                                          Dunmore, PA                               1            35             35 N/A                          N/A
                                                                    Awareness Briefing                            3/25/2010
                                                                    Fraud Prevention/
      12         Fraud Prevention/Awareness   State                                          Boise, ID
                                                                                                                  3/30/2010
                                                                                                                                       1            60             60 N/A                          N/A
                                                                    Awareness Briefing
                                                                                                                               TOTAL              1040           1170


                                                OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                                    Outreach
                    Organization to which                                                                         Date of
     No.                                       Represented at Description of Outreach         Location (City,
                     Outreach Provided                                                                           Outreach
                                                 Outreach                                         State)
                                                  Session
                                                                  Discussed Ongoing
       1         City of Columbus Georgia                       1                            Columbus, GA
                                                                  Recovery Act Projects                            3/5/2010
                 Massachusetts Port                               Overview of Recovery
       2                                                        1                            Boston, MA
                 Authority                                        Act efforts                                      3/8/2010
                 New York State Stimulus                          Discussed Fraud
       3                                                        5                            New York, NY
                 Oversight Working Group                          Prevention Strategies                           3/25/2010
                 MA STOP Fraud Task                               Discussed Fraud
       4                                                       20                            Boston, MA
                 Force                                            Prevention Strategies                           3/29/2010
                                                                                                                                                                            DOT OIG Monthly Report Num 13 03-31-10
